Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Federally Funded Health Centers and
 Low Income Children’s Health Care

    Improving SCHIP Enrollment and
 Adapting to a Managed Care Environment




                    JUNE GIBBS BROWN
                     Inspector General

                      DECEMBER 2000
                       OEI-06-98-00321
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Nancy Juhn, Ph.D., Project Leader               Joan Richardson, Program Specialist

Nancy Watts

Scott Whitaker

Lisa White




         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                          EXECUTIVE SUMMARY



PURPOSE

         To examine the experience of Federally funded health centers in implementing the State
         Children’s Health Insurance Program (SCHIP) and in delivering health care to children
         covered by SCHIP.

BACKGROUND

         Federally funded health centers have been major safety-net providers for low income families
         since the 1960s. These centers have struggled in the 1990s to continue their mission as States
         move toward Medicaid managed care. Beyond adapting to their changing health care
         environment, SCHIP have underscored a need for assertive outreach by health centers to
         enroll uninsured children, many of whom are already their patients. Although there are two
         types of SCHIP programs, Medicaid expansion programs and separate child health programs,
         this report, we will use SCHIP inclusively without differentiating program types. To study
         health centers and their role under SCHIP, we conducted a national survey of a
         representative sample of 405 health centers from all 50 States, including the District of
         Columbia and Puerto Rico. A few States were not yet able to address all aspects of a fully
         operating SCHIP program, but could still respond regarding their experiences in the changing
         health care environment.

FINDINGS

         As trusted health care providers within needy communities, these centers can serve as one of
         the most appropriate agents for enrolling children in the SCHIP. For health centers,
         emergence of the SCHIP provides a significant additional funding source as they continue to
         make health care available to uninsured children. Thus, the mutual needs of both States and
         health centers can be well-served through their stronger collaboration. However, the health
         centers must also be prepared for changes in reimbursement methods.

Outreach and Enrollment

         Eighty-three percent of health centers conduct their own SCHIP outreach, which primarily
         entails screening current clients for SCHIP eligibility. Forty-two percent have also relied on
         outside resource assistance, such as funds and/or manpower, to aid their outreach efforts.

         State SCHIP enrollment training for health center staff is four times more likely to increase
         reported health center enrollment success.

Federally Funded Health Centers and SCHIP      __________                                   OEI-06-98-00321
                                                     i
         Sixty-one percent of health centers do not have “outstationed eligibility workers”, even
         though only 7 percent are designated as “low use” sites, i.e. having few Medicaid eligible
         clients.

         Health centers that have outstationed eligibility workers or are authorized to use presumptive
         eligibility are substantially more likely to receive State enrollment training which, in turn,
         increases reported enrollment success.

         Two-thirds of health centers cited welfare stigma, fear that applying for SCHIP will
         jeopardize immigration status, and complicated application forms as barriers to enrollment.
         Lengthy processing times for eligibility determinations reduce the likelihood of having
         children actually enroll in SCHIP.

Adapting to a Changing Health Care Environment

         Sixty-three percent of health centers contracted with a managed care organization that covers
         children, although half of these centers obtained their contracts recently. Those centers
         involved in managed care are beginning to accept financial risk for patient care and move
         away from traditional cost-based reimbursement. However, “enabling services” such as
         transportation, translation and outreach, critical for access to care, are not always reimbursed
         under managed care.

         Only 32 percent of centers indicated that their States required Medicaid managed care
         organizations to include them in provider networks. Health centers are more likely to form
         their own managed care organizations, in part, when the States do not require inclusion of
         health centers in Medicaid managed care provider networks.

         Relatively few health centers (21%) were making changes to specifically adapt to the phase-
         out of Medicaid cost-based reimbursement. However, health centers were altering their
         business infrastructures in response to changes in the general health care environment.

RECOMMENDATIONS

         The Health Care Financing Administration (HCFA) should:

                   Promote enrollment of children in SCHIP through the health centers by encouraging
                   States to provide enrollment training for health center staff and to increase the
                   number of health centers with outstationed eligibility workers and designated as
                   presumptive eligibility sites, where applicable.

                   Encourage States to promote inclusion of health centers, that are ready for managed
                   care, in the Medicaid and/or SCHIP managed care provider networks, and to expand
                   reimbursement to include enabling services.

         The Health Resources and Services Administration (HRSA) should continue to help health
         centers prepare for the phase-out of Medicaid cost-based reimbursement.

Federally Funded Health Centers and SCHIP       __________                                  OEI-06-98-00321
                                                     ii
AGENCY COMMENTS

         The HCFA and HRSA generally concur with our recommendations. The HCFA states that it
         is already addressing many of our recommendations, particularly with regard to eligibility and
         outreach issues.




Federally Funded Health Centers and SCHIP     __________                                  OEI-06-98-00321
                                                   iii
                           TABLE                          OF             CONTENTS



                                                                                                                                    PAGE


EXECUTIVE SUMMARY                                                                                                                             i


INTRODUCTION                                                                                                                                 1


FINDINGS


         Outreach Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


         Enrollment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


         Adapting to a Changing Health Care Environment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


RECOMMENDATIONS                                                                                                                            11


ENDNOTES                                                                                                                                   14


BIBLIOGRAPHY                                                                                                                               17


APPENDICES


         A: Discussion of Regression Model . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


         B: Chi-square Test Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


         C: Point Estimates and Confidence Intervals from Key Survey Questions . . . . . . . . . . . . C-1


         D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1





Federally Funded Health Centers and SCHIP                     __________                                                     OEI-06-98-00321
                                      INTRODUCTION



PURPOSE

         To examine the experience of Federally funded health centers in implementing the State
         Children’s Health Insurance Program (SCHIP) and in delivering health care to children
         covered by SCHIP.

BACKGROUND

State Children’s Health Insurance Program

         Title XXI of the Social Security Act, under The Balanced Budget Act of 1997, created
         SCHIP. Authorized for ten years, and funded at $20.3 billion from 1998-2002,1 the program
         targets children in low-income families (generally under 200% of the Federal poverty level)
         with the intent of providing States with an opportunity to design health care delivery systems
         that are similar in scope and structure to coverage that is available through private insurance.
         Nearly two million children were enrolled in SCHIP during Federal Fiscal Year 1999.2 The
         Health Care Financing Administration (HCFA) is responsible for administering SCHIP, with
         joint oversight by the Health Resources and Services Administration (HRSA).

         The authorizing legislation provides States flexibility in designing their SCHIP programs by
         allowing them to adopt one of three models. According to HCFA at the time of this study,3
         27 States, including Puerto Rico and the District of Columbia, opted to expand their
         Medicaid programs, 13 States selected a combination of Medicaid expansion and a separate
         SCHIP program, while 16 States elected only to create a separate SCHIP program.4 Most
         States that created a separate SCHIP program also established an independent agency to
         administer the program.

         Program benefits vary by model chosen. If Medicaid expansions are used, the same benefits
         and administrative rules used by the existing Medicaid program apply. States which
         previously expanded Medicaid for children, or created a separate SCHIP program, are
         allowed to expand eligibility beyond 200 percent of the Federal poverty level to 50
         percentage points higher than their existing eligibility limits.5 Some States that created a
         separate SCHIP program had established additional benefits above Federally legislated
         SCHIP minimum standards.

Federally Funded Health Centers

         Generally located in communities with low to moderate family incomes, Federally funded
         health centers have been major safety-net providers for low income children since the 1960s.

Federally Funded Health Centers and SCHIP       __________                                 OEI-06-98-00321
                                                    1
          Centers are funded by Section 330 of the Public Health Service Act, which is administered
         by HRSA, with some receiving State and local funds as well. In addition to primary health
         care services, these clinics also provide enabling services such as translation, health
         education, and transportation which are important to serving the SCHIP population. Since
         services for children are a large program component for many of these centers, they hold
         considerable promise in helping realize the goals of the SCHIP legislation. Our prior OIG
         study of health centers showed that, due to the level of trust and service they have established
         in their communities, they possess great aptitude for outreach and enrollment.6

         Besides SCHIP implementation, Federally funded health centers have experienced other
         substantial changes in the health care system, particularly due to State movement towards
         Medicaid managed care in the 1990s. Recognizing the need to adapt to this environment,
         some centers have assertively joined or created managed care organizations or undertaken
         special developmental efforts like infrastructure enhancements.7 Our prior case study report
         indicated that HRSA also makes technical assistance and training opportunities available to
         aid centers in adapting to managed care.8 The transition from Medicaid cost-based
         reimbursement9 continues to challenge centers as they seek to better manage costs and devise
         appropriate reimbursement formulae within their health plan contracts.10

Other Recent SCHIP Studies

         Another OIG report, The Children’s Health Insurance Program, State’s Application and
         Enrollment Processes: An Early Report From the Front Lines (OEI-05-98-00310), found
         that application length and complexity were barriers to enrollment in Medicaid and the
         SCHIP. Additional work in the field by the United States General Accounting Office (GAO)
         focused on outreach mechanisms and enrollment between Medicaid and SCHIP and a
         comparison of optional benefits. The GAO report stated that outreach activities for Medicaid
         and SCHIP were similar; however, more documentation was required for Medicaid than for
         SCHIP eligibility determinations in half of the ten States they sampled.11

METHODOLOGY

         In 1999, we published CHIP’s Impact on Changing Service Delivery of Federal Health
         Centers: Six Case Studies, OEI-06-98-00320 which employed a case study approach to focus
         on the experiences of individual centers in implementing SCHIP. Based on issues developed
         from this case study report, we designed a structured survey to obtain representative, national
         information on centers’ experiences and issues regarding separate child health programs and
         Medicaid expansions. The results of this national survey are reported here. For the rest of
         this report, we will use SCHIP inclusively for the separate child health program and Medicaid
         expansions without differentiating model types unless otherwise noted12.




Federally Funded Health Centers and SCHIP       __________                                OEI-06-98-00321
                                                    2

Study Focus

         The survey focused on health centers’ involvement in SCHIP planning, outreach activities
         and enrollment, and health centers’ adjustments to the changing health care environment,
         particularly for provision of children’s health care services. The term outreach by health
         centers as used in this report means encouraging clients to establish SCHIP eligibility rather
         than encouraging a choice of a particular provider. Health centers’ executive directors were
         the primary survey respondents. Having conducted in-person interviews with them for our
         case study report, we learned that they are highly knowledgeable about various aspects of
         their health centers and SCHIP’s impact on them. Since our study focused on the health
         centers’ perspectives, we did not attempt to validate center responses, including statements
         about the SCHIP activities of their States and/or State Primary Care Associations (PCA).

Sample

         Using the HRSA 1998 Uniform Data System (UDS) database, we selected a simple random
         sample of 462 centers from the total of 615 Federally funded health centers receiving Section
         330 grant funding. These grantees include Community Health Centers, Homeless Centers
         and Migrant Heath Centers. In this report, for brevity, we use the term “health centers” to
         represent each of these Section 330 grantees.

         The HRSA 1998 UDS provided general information regarding the centers in our sample.
         Our study sample included a diverse population of health centers. Forty percent of the
         patients served by health centers in our sample were between the ages of 0-19, totaling over
         two million children. These centers also serve a high proportion of racial/ethnic minority
         populations, including Native Americans (2%), Asians/Pacific Islanders (3%), African
         Americans (22%) and Hispanics (28%).

Data Collection

         The survey data were collected primarily via the Internet and also by mail. On December 10,
         1999, we initially mailed structured survey forms to 94 health centers lacking Internet access.
          During the first week of January 2000, the remaining 368 health centers in our sample
         received an e-mail message containing a link to an electronic survey at an Internet site.13
         Data collection was completed by February 19, 2000.

         A total of 405 (88%) of the sampled health centers returned completed surveys, and included
         responses from health centers in all 50 States, the District of Columbia and Puerto Rico.
         Throughout this report, the term “States” is also applied to the District of Columbia and/or
         Puerto Rico. At the time of our survey, a few States (Hawaii, Washington, Wyoming and
         Puerto Rico) had approved SCHIP plans, but were not yet enrolling children. As a result,
         some of these centers were not able to address all aspects of a fully operating program, but
         could still respond regarding their experience in the changing health care environment.




Federally Funded Health Centers and SCHIP       __________                                OEI-06-98-00321
                                                    3

Statistical Analysis

         This sample design and our strong response rate yield national results that are statistically
         significant at a 95 percent degree of confidence with a 5 percent margin of error, unless
         otherwise noted in the Appendix. Descriptive data are expressed as proportions (%), and
         statistical differences between categorical variables were assessed using a Chi-square test.
         For this analysis, we also used logistic multivariate regression models to further
         explain/predict key variables. Of particular interest is understanding what factors contribute
         to health centers’ success in enrolling eligible children in SCHIP. The actual number of
         children enrolled in SCHIP by each health center was not available. Therefore, the regression
         model employed a dichotomous dependent variable that simply indicates whether or not the
         center reported SCHIP enrollment. After controlling for other factors, these explanatory
         variables for enrollment outcomes were: date of SCHIP plan approval, State SCHIP model,
         outreach activities, enrollment training for health centers, use of presumptive eligibility, use
         of outstationed eligibility workers, and application processing times.14

         The tables in the Appendix present relevant statistics for key survey questions, including
         standard errors and confidence intervals based on t-statistics. For calculating standard errors,
         we used finite population correction factors since our sample represents two-thirds of the
         true population. Consequently, findings presented in this report are based upon strong
         statistical inference about population characteristics. The Appendix also includes values of
         the Chi-square test and parameter estimates of the regression results. All tests were
         performed at a significance level of á=0.05.

Non-Respondent Analysis

         To detect non-respondent bias, we tested data for significant differences between respondents
         (405 centers) and non-respondents (57 centers) by the following characteristics: State,
         SCHIP model type and number of children a health center serves. We did not find significant
         differences between these two groups.

         We conducted our study in accordance with the Quality Standards for Inspections issued by
         the President’s Council on Integrity and Efficiency.




Federally Funded Health Centers and SCHIP          __________                             OEI-06-98-00321
                                                        4

                                            FINDINGS

OUTREACH ACTIVITIES

Most health centers (83%) conduct their own SCHIP outreach, which primarily
entails screening current clients; 42 percent have relied on outside resource
assistance.

         The most frequent outreach methods are screening and identifying eligible children from
         existing clients (76%), posting SCHIP information fliers and/or posters in their health centers
         (73%), and providing SCHIP information through their health providers (64%). It appears
         that center outreach was mainly limited to existing clients since most centers utilized in-house
         activities rather than reaching out to new SCHIP eligible populations. Although one health
         center in our case study report was aggressively canvassing its local community for eligible
         applicants, we didn’t find this type of outreach activity common among the centers in our
         national survey.

         Outside resources received for outreach were funds and/or manpower. The top sources of
         outside resources were grants (42%) and contracts (19%) for SCHIP. Some centers (38%)
         reported that they also received outside resources from various State or local organizations.
         Eleven percent of the centers indicated that the Robert Wood Johnson Foundation provided
         outreach resources.

ENROLLMENT

         Understanding factors contributing to health centers’ enrollment of eligible children in SCHIP
         is of particular interest. By February, 2000, when we concluded data collection, 73 percent
         of responding health centers reported they had already enrolled children in SCHIP. The
         logistic regression analysis explains what events or activities most influenced these early
         enrollments (See Appendix A).

State outreach activities enhance health centers’ SCHIP enrollment.

         Centers which reported State outreach (74%), were 2.5 times more likely to have enrolled
         children than those centers who said their States had not conducted outreach. (25%)15
         Among this 25 percent of centers, 13 percent indicated that State outreach activities were in
         the planning stage. The fact that not all centers were aware of State outreach activities is not
         necessarily an indicator of actual State activity, but may suggest the degree to which State
         activity is perceptible or the effectiveness of methods used in reaching community level
         providers. Also, a few States had not fully implemented SCHIP, which may have affected
         their outreach activities.




Federally Funded Health Centers and SCHIP       __________                                 OEI-06-98-00321
                                                     5

         Of those centers which reported State outreach, the most frequent State outreach methods
         cited by health centers were public service announcements (60%), information distribution
         through schools (46%) and newspaper advertisements (42%).

State SCHIP enrollment training is four times more likely to increase health center
enrollment, and centers that have outstationed eligibility workers or are a
presumptive eligibility site are more likely to receive such State training.

         Health centers are almost four times more likely to enroll children if they are receiving
         SCHIP enrollment training from their States.16 Enrollment training provides health center
         staff with a better understanding of the SCHIP enrollment process and the ability to assist
         clients in completing enrollment forms. A related factor underpinning enrollment success is
         that centers with outstationed eligibility workers or a presumptive eligibility site designation
         are more likely to receive this State training. Health centers with outstationed eligibility
         workers are 2.4 times more likely to be trained, and health centers designated as presumptive
         eligibility sites are 1.7 times more likely.17

         States have the option of employing presumptive eligibility, which extends immediate
         Medicaid or SCHIP coverage to children until a formal eligibility determination is made.
         Determinations are made by designated presumptive eligibility sites, which can include health
         centers, hospitals or other providers. Health centers designated as presumptive eligibility
         sites reported enrolling children in SCHIP more often than those centers that were not.18
         Fifty-seven percent of centers indicated that presumptive eligibility was applicable in their
         States. Of those centers, 44 percent reported that they were a presumptive eligibility site for
         SCHIP.

Sixty-one percent of health centers do not have outstationed eligibility workers,
even though only 7 percent are designated as “low use” sites.

         Among the 61 percent of the health centers that did not have outstationed eligibility workers,
         only 7 percent were reported to be “low use” sites. According to HCFA Medicaid
         regulations governing low-income eligibility groups, “the State agency must have staff
         available at each outstation location during the regular office hours of the State Medicaid
         agency to accept applications and to assist applicants with the application process.”19 The
         proposed rule on implementing regulations for SCHIP specifies that States that implemented
         Medicaid expansions must follow the existing Medicaid rules on application assistance.20 As
         one of the designated outstation locations, health centers are exempted when they are “low
         use” sites, i.e., “outstation locations that are infrequently used by the low-income eligibility
         groups.” However, States have the discretion to determine what constitutes a “low use” site
         without regard to a minimum standard.21

         Thirty-nine percent of the health centers had outstationed eligibility workers with most
         receiving some State funding. Of the health centers with outstationed eligibility workers, 45
         percent indicated that the State provided full funding for the position and another 30 percent



Federally Funded Health Centers and SCHIP       __________                                 OEI-06-98-00321
                                                    6

         indicated that the positions were partially funded by the State. Twenty-five percent of
         centers provided their own funding for outstationed eligibility workers. Bearing in mind that
         patient load varies widely, the number of outstationed eligibility workers in terms of full time
         equivalents (FTEs) ranged from 0.1 FTE to 13 FTEs per center, with 68 percent reporting up
         to 1.0 FTE in their center.

Two-thirds of health centers reported enrollment barriers, citing welfare stigma,
immigration status, and complicated application forms as key concerns.

         Sixty-four percent of the health centers perceived that their clients were experiencing
         enrollment barriers, indicating these are national issues. The top three barriers cited were:
         client’s negative perceptions of government welfare programs (68%), concerns that
         application may affect immigrant status (59%) and complicated application forms (41%).
         Our earlier case study report of selected States, confirmed that some applicant families fear
         that applying for SCHIP benefits would jeopardize their immigration status, under public
         charge provisions, or alert the Immigration and Naturalization Service (INS) if they were
         here illegally. Likewise, another OIG study found that language complexity and application
         length were deterrents to potential applicants.22

Short processing times for eligibility determinations increase the likelihood of
having children actually enroll in SCHIP.

         Centers, for which enrollment decisions were made within one month, were twice as likely to
         have enrolled children in SCHIP.23 Of health centers that had experience with the SCHIP
         enrollment process, 43 percent said that eligibility was determined in less than one month.
         However, more centers (50%) indicated that it took more than one month; 37 percent
         reported that it took one to two months and another 13 percent indicated it took more than
         two months. Eight percent of centers did not know the time frame for enrollment decisions.

State SCHIP models influence health center SCHIP enrollment outcomes, but use of
enrollment brokers has little effect.

         The SCHIP model chosen by a State seems to affect enrollment outcomes.24 Health centers
         under a combined model or a separate SCHIP program are about three times more likely to
         enroll children than centers operating under a Medicaid expansion model.25 A GAO report26,
         which compared Medicaid and SCHIP application processes, noted that Medicaid
         applications required more documentation than SCHIP applications. This added burden for
         those who can only apply under a Medicaid expansion plan might be a barrier to enrollment
         as well.

         Twenty-four percent of the health centers indicated that their States were using enrollment
         brokers, State contractors who administer the enrollment process. The use of enrollment
         brokers showed no significant relationship with centers’ reported success in enrolling
         children.27



Federally Funded Health Centers and SCHIP       __________                                OEI-06-98-00321
                                                    7
ADAPTING TO A CHANGING HEALTH CARE ENVIRONMENT

         Although the introduction of the SCHIP program provides a potentially valuable funding
         source for health centers, they must also be prepared for other changes in reimbursement
         methods. The recent challenges to health centers in the health care environment are the
         general movement of Medicaid programs to managed care and the phase-out of Medicaid
         cost-based reimbursement to health centers.

Sixty-three percent of health centers had managed care contracts that cover
children, although half of these centers obtained their contracts recently.

         Health centers either had no managed care experience, or extensive but sometimes recent
         experience. Health centers have faced critical changes in their health care delivery systems,
         most notably conversion of State Medicaid programs from fee-for-service to managed care.
         Those centers with managed care contracts appeared adept at gaining inclusion, with 82
         percent of them having garnered contracts with more than one managed care organization
         (MCO). Yet, the managed care experience for many centers has been relatively recent with
         over half (53%) first entering into a contract between 1996 and 1999.

The health centers are more likely to form their own managed care organizations, in
part, when the States do not require inclusion of health centers in Medicaid
managed care provider networks.

         Our findings revealed that health centers were significantly more likely to have a managed
         care contract if their State requires Medicaid MCOs to include safety-net providers, such as
         health centers, in their provider networks.28 However, only 32 percent of the Federally
         funded health centers indicated that their States had such requirements. Nine percent of the
         centers reported that their States offered incentives for MCOs to include them in their
         provider networks, while some States employed both strategies. When such State
         requirements do not exist, health centers are more likely to form their own MCOs.29

         If center-owned managed care organizations were available, centers tended to be involved in
         them. Thirty-four percent said that a health center-owned MCO operated in their State. Of
         these centers, 63 percent indicated that a center-owned MCO was currently operating in the
         area they served, and 90 percent of those centers were involved. The nature of center
         involvement with these MCOs varied, but most reported their center was contracted to
         provide services (96%), had a financial investment (68%) and/or was represented on the
         board of directors (69%).

Health centers involved in managed care are beginning to accept financial risk for
patient care.

         Although these centers receive various types of reimbursement under their managed care
         contracts, almost half were assuming some financial risk through primary care capitation
         reimbursement. While the reimbursement methods reported are not mutually exclusive, the


Federally Funded Health Centers and SCHIP      __________                                OEI-06-98-00321
                                                    8

         most common ones centers reported under their largest SCHIP and/or Medicaid managed
         care contract included: cost-based (55%), primary care capitation (48%), full capitation
         (17%), and risk withholding (12%). Thus, beyond the cost-based reimbursement30 all centers
         experienced previously under Medicaid, some centers are gaining operating experience under
         other reimbursement structures common to the growing managed care environment.
         However, 37 percent of centers are still outside of managed care altogether and have yet to
         adjust to these other reimbursement methods.

Enabling services, critical to health center patients for accessing care, are not
always reimbursed under managed care.

         Not considered routine medical services in the private sector, “enabling services” such as
         transportation, translation, outreach, case management, health education, and other social
         services to assist patients, are often essential for the populations served by these centers to
         access health care.31 In addition to primary and preventive health services, most Federally-
         funded health centers provide some level of enabling services. However, only 19 percent of
         the health centers under a managed care contract receive direct reimbursement for enabling
         services. Among those centers, reimbursement for these services were most frequently
         reported for: case management (49%), transportation (41%), health education (33%) and
         outreach (31%). Centers that receive cost-based reimbursement have enabling services built
         into their cost report and are thereby paid for them.

         Just 18 percent of centers were receiving reimbursement from their contracted MCO for
         translation services, although 34 percent indicated that one or more languages, other than
         English, were predominantly spoken in the community they serve. Thirty-five percent of
         health centers reported that SCHIP applications were not available in a language other than
         English, or they were not aware of the availability of bilingual applications. As indicated
         earlier, health centers serve a high proportion of ethnic minority populations for whom
         English is a second language. HCFA’s proposed SCHIP implementation regulations32
         suggest that “a State may overcome language barriers by establishing a methodology for
         determining the prevalent language or languages in a geographic area and making information
         available in the languages that prevail throughout the State or in limited geographic areas
         where appropriate.”33

Relatively few health centers (21%) were making changes to specifically adapt to
the phase-out of Medicaid cost-based reimbursement.

         Under the Balanced Budget Act of 1997, Medicaid cost-based reimbursement to health
         centers is being phased out, although the Balanced Budget Refinement Act of 199934
         extended the phase-out period by two years until 2005. Some States, at their option, may
         continue to pay 100% of Medicaid reasonable costs although most are expected to phase-out
         of Medicaid cost-based reimbursement. Consequently, many health centers are anticipating a
         reduction in revenues under the Medicaid expansion component of SCHIP. Medicaid is, and
         has been, the largest funding source for these centers, followed by HRSA’s Section 330
         grants.35 Current funding levels indicate that SCHIP will provide a significant portion of
         health center revenues.

Federally Funded Health Centers and SCHIP       __________                                OEI-06-98-00321
                                                    9

         Only 21 percent of health centers reported making changes to adapt to the phase-out of cost
         based reimbursement. Within that group, one strategy employed by 61 percent of those
         centers, has been to seek out foundation grants/contracts and more State and local subsidies
         to supplement their revenues. Other options, pursued to a lesser degree, were to reduce
         administrative staff (47%) and/or reduce clinical staff (39%). Few centers chose to increase
         administrative staff (4%) or eliminate children’s programs/services (5%). However, many
         centers have presently been able to put off adjusting to new reimbursements, with 52 percent
         having received an extension to continue under cost-based reimbursement for an additional
         period of time.

Health centers are altering their business infrastructures in response to changes in
the health care environment.

         Whether a direct response to SCHIP, managed care, or changing reimbursement methods,
         health centers indicated some changing dynamics in their operations. Sixty-two percent of
         centers made changes to their administrative procedures. Of those centers, 90 percent were
         upgrading their management information system (MIS) and 49 percent were increasing front
         desk staff for public/private insurance verifications. For some, the introduction of the SCHIP
         program created a center need to add a marketing budget (41%). Among the 36 percent of
         centers that increased clinical staff, the most common additions were: more nursing staff
         (54%), medical assistants (47%) and family physicians (41%). These changes were intended
         to increase productivity of physician time.36

Health centers played a role in SCHIP planning, and are positive about their
continued role in serving children.

         Federally funded health centers have been major safety-net providers for low income children
         since the 1960s. In regard to SCHIP particularly, the health centers have contributed to
         planning for its implementation and are optimistic about their part in its future.

         Health centers were primarily involved in SCHIP planning through their States’ Primary Care
         Associations (PCA), although some were also active individually as well. Seventy-one
         percent of centers reported involvement in the planning process in some capacity. Of these,
         77 percent felt that their involvement had a positive impact on the outcome of their States’
         SCHIP plans. The centers that did not participate in the planning process reported that their
         States did not request their input, or that they were unaware of opportunities to participate.37

         Despite challenges, most health centers appear optimistic about the future, with 80 percent
         expecting to serve more children and 12 percent expecting to serve the same number of
         children. Only eight centers (2%) thought that they would serve fewer children in the future,
         while 24 centers (6 %) indicated that they did not know if they will serve more or less.
         Losing children to other managed care providers and reduction in Medicaid eligibles, due to
         welfare reform, were the main reasons why some centers believed they would serve fewer
         children in the future.



Federally Funded Health Centers and SCHIP       __________                                OEI-06-98-00321
                                                    10
                             RECOMMENDATIONS

As trusted, established health care providers within needy communities, Federally funded health
centers are one of the most appropriate agents to help fulfill the goals of the SCHIP program. In
return, SCHIP enables these centers to benefit from additional funding as they continue to make
health care available to the uninsured. While HCFA and HRSA have assisted States and health
centers with SCHIP implementation, more work lies ahead for both agencies, States and health
centers to ensure health centers’ future viability.

We believe that close coordination among HCFA, HRSA, and State Medicaid and SCHIP agencies
that work with under-served populations can be highly effective in providing health care to needy
children through Medicaid and SCHIP. To continue improving and supporting health centers’
performance in those areas indicated by our findings, we recommend the following:

HCFA should encourage State actions and policies that promote successful
enrollment of children in SCHIP through the health centers. HCFA should:

         Encourage States to provide SCHIP enrollment training to all health centers. Health
         centers that received enrollment training from their States were more likely to enroll children
         in SCHIP than those centers that received none. State enrollment training was the most
         significant factor that influenced successful enrollment for health centers.

         Promote State adherence to regulations which require the States that implemented
         Medicaid expansions to appropriately allocate outstationed eligibility workers to health
         centers. Our findings indicate that outstationed eligibility workers play a key role in health
         center enrollment of children in SCHIP. While only a few centers indicated that they were a
         “low-use” site, more than half of them did not have outstationed eligibility workers in their
         facilities.

         Encourage States to designate more health centers as presumptive eligibility sites,
         where applicable. Under the Balanced Budget Act of 1997, States may establish
         presumptive eligibility for the Medicaid program. States with separate or combined SCHIP
         models have considerable flexibility in incorporating presumptive eligibility in their SCHIP
         program. We found that being a presumptive eligibility site increases the likelihood that a
         health center will receive enrollment training and, subsequently, enroll children in SCHIP.

         Support continued State outreach activities and enhanced outreach at local community
         levels where health centers are. States’ outreach activities such as public service
         announcements, information distribution through schools and newspaper advertisements
         stimulate health centers’ SCHIP enrollment. However, one-fourth of the centers indicated
         that either their States were in the outreach planning stage or they were not yet aware of any
         outreach activities conducted by the State. States should continue with their current SCHIP
         outreach efforts while monitoring to see that the outreach activities are conducted in
         communities where health centers are present.

Federally Funded Health Centers and SCHIP       __________                                OEI-06-98-00321
                                                    11
         Promote quicker SCHIP eligibility determinations. We found that centers whose States

         made enrollment decisions within one month, were twice as likely to

         have enrolled children in SCHIP. 


         Encourage States to promote inclusion of health centers, that are ready for managed

         care, in Medicaid and/or SCHIP managed care provider networks. Thirty-seven percent

         of health centers indicated that they did not have managed care contracts that cover children. 

         However, health centers are more likely to have managed care contracts if the State requires

         the MCOs to include safety-net providers, such as health centers. 


         Recommend that States promote MCO reimbursement for enabling services. “Enabling

         services” such as transportation, translation and other social services are often critical for the

         patients served by these centers to access health care. However, only 19 percent of

         respondent health centers were receiving direct reimbursement for enabling services from

         their managed care contracts.


HRSA should continue to support health center adjustments to the changing health
care environment. HRSA should:

         Continue preparing health centers for the phase-out of Medicaid cost-based
         reimbursement. Only 21 percent of health centers reported making changes to adapt to the
         phase-out of Medicaid cost based reimbursement. Of those, most (61%) sought out
         additional subsidies rather than making operational changes. Moreover, more than half of the
         centers under managed care contracts were still reimbursed using traditional cost-based
         methods. Health centers should be encouraged to aggressively utilize managed care training,
         managed care contract review and on-site technical assistance from HRSA’s Bureau of
         Primary Health Care's Office of Program and Policy Development to help prepare for the
         conversion from cost-based reimbursement.

         Promote the formation of health center managed care networks to assure effective
         health center participation in Medicaid and/or SCHIP managed care programs. If
         States do not require MCOs to include health centers and/or one is not available in a center’s
         service area, then HRSA should provide assistance to aid health centers that are ready for
         managed care in forming center-owned MCOs in communities that will support them. In
         cases where a center-owned MCO was currently operating in their service area (63%), most
         centers (90%) were participants.

HRSA, in coordination with HCFA, should consider further examination of the
impact of SCHIP outreach activities.

         To better understand the effectiveness of outreach activities, future review or evaluations
         which are consolidated with existing Department initiatives are needed.




Federally Funded Health Centers and SCHIP        __________                                  OEI-06-98-00321
                                                     12

Agency Comments

         For this report, both HCFA and HRSA provided written comments, the full texts of which
         are included in Appendix D. Both agencies generally concur with our recommendations, and
         both offered technical comments which are reflected in our revisions. As HCFA points out,
         many of the recommendations are already being addressed by them, particularly with regard
         to eligibility and outreach issues.

         Outstationed Eligibility Workers – HCFA and HRSA suggested revisions to our
         recommendation to HCFA regarding outstationed eligibility worker requirements. HCFA
         suggested reframing the recommendation to focus on States ensuring outstationed eligibility
         workers are located in the most appropriate settings and on States expanding the use of
         outstationing as an enrollment technique. HRSA suggested the need for informing States of
         their obligation for outstationing workers and providing reimbursement for them, as they
         believe our data indicate that most States are not adhering to the requirement.

         Since the sole focus of our study was to examine the experiences of health centers in a
         SCHIP environment from their perspective, we do not believe our data warrant the changes
         regarding State roles and responsibilities suggested by HCFA and HRSA. Conceptually, we
         agree that schools and community centers are probably valuable points of entry for children
         into SCHIP, but we cannot claim that in this report. We believe that we have clearly
         indicated that health centers, except low-use sites, are required to have outstationed
         eligibility workers placed by States.

         MCO Reimbursement For Enabling Services – HCFA thought it would be helpful for us
         to define “enabling services” so that they can determine which ones are already mandatory
         Medicaid services and which are optional. A full list of enabling services is referenced in the
         report.

         HCFA’s assuring that States provide reimbursement to MCOs for mandatory enabling
         services is a good plan in our view. However, whether the particular enabling service is
         mandatory or not, we urge HCFA to promote State support of MCO reimbursement for all
         these services. We found that enabling services are often critical for the patients served by
         these health centers. Only 19 percent of health centers indicated that they were receiving
         direct reimbursement for enabling services from their managed care contracts.




Federally Funded Health Centers and SCHIP       __________                                OEI-06-98-00321
                                                    13

                                            ENDNOTES

1.	      Sara Rosenbaum, Kay Johnson, Colleen Sonosky, Anne Markus and Chris DeGraw, “The
         Children’s Hour: The State Children’s Health Insurance Program,” Health Affairs,
         January/February 1998, pp. 75-89.

2.	      The State Children’s Health Insurance Program Annual Enrollment Report, October 1,
         1998-September 30, 1999

3.	      The HCFA SCHIP website, State Children’s Health Insurance Program (SCHIP) Status
         Report. (updated as of October 27, 1999).

4.	      The HCFA SCHIP website, Status of State Plan (as of June 21, 2000) states that Illinois,
         Indiana, North Dakota, New York and Texas, have changed to a Combined program.
         Thus, there are 23 Medicaid expansion States, 18 Combined program States and 15
         Separate SCHIP program States.

5.	      Neal Halfon, Moira Inkelas, Helen DuPlessis and Paul W. Newacheck, “Challenges in
         Securing Access to Care for Children,” Health Affairs, March/April 1999, pp. 48-63.

6.	      CHIP’s Impact on Changing Service Delivery of Federal Health Centers: Six Case
         Studies, October 1999, OEI-06-98-00320.

7.       Ibid. OEI-06-98-00320

8.	      HRSA created the Center for Managed Care in 1996 to assist centers in adapting to
         changes in the health care system.

9.	      Cost-based reimbursement is the full reimbursement of allowable expenses from an
         annual cost report.

10.      Ibid. OEI-06-98-00320.

11.	     Medicaid and SCHIP: Comparisons of Outreach, Enrollment Practices, and Benefits,
         GAO, GAO/HEHS-00-86, April 2000.

12.	     During our data collection stage, States had chosen a variety of SCHIP models, and were
         at different levels of implementation. Because of this, we asked health centers to
         comment on the parts of the SCHIP program model and/or implementation with which
         they were familiar. In this report, we used “SCHIP” as the term to cover all the different
         model types and implemented programs described by the health centers.

13.      The Internet survey was created using the Raosoft Ezsurvey software.

14.      See Appendix A for complete logit regression models.


Federally Funded Health Centers and SCHIP      __________                                OEI-06-98-00321
                                                   14
15.	     See Appendix A for the regression results. The remaining 1 percent of the centers

         indicated that they did not know whether or not their States were conducting outreach. 


16.      See Appendix A for the regression results.


17.      See Appendix A for auxiliary logit regression model. 


18.      See Appendix B for the Chi-Square test results.


19.	     Code of Federal Regulations, Title 42, Volume 3, 42CFR435.904 passim (revised as of 

         October 1, 1999).


20.	     Federal Register, Vol. 64, No. 215, 42CFR457.110 (November 8, 1999).

         Page 60892 of the preamble for the proposed rule on implementing regulations for SCHIP

         specifies under “Enrollment simplification” that “States that implement Medicaid

         expansions must follow all Medicaid rules relating to application assistance and eligibility

         determination.” States selecting a separate child health program are encouraged to

         consider outstationing eligibility at sites that are frequented by families with children.


21.	     Code of Federal Regulations, Title 42, Volume 3, 42CFR435.904 passim (revised as of 

         October 1, 1999).


22.	     The Children’s Health Insurance Program: States’ Application and Enrollment

         Processes: An Early Report From the Front Lines, May 1999, OEI-05-98-00310.


23.      See Appendix A for the regression results.


24.      See Appendix A for the regression results. 


25.      See Appendix A for the regression results.


26.      Ibid. GAO, April 2000.


27.      Chi-Square test for this relationship was not significant.


28.      See Appendix B for the Chi-Square test results.


29.      See Appendix B for the Chi-Square test results.


30.	     Capitation payment is a fixed monthly payment of a specified set of services for each

         enrollee.


31.	     Helen Halpin Schauffler, Jessica Wolin, “Community Health Clinics under Managed

         Competition: Navigating Uncharted Waters,” Journal of Health Politics, Policy and Law,

         Vol. 21, No. 3, Fall 1996, pp. 461-488.


32.      Federal Register, Vol. 64, No. 215, 42CFR457.110 (November 8, 1999).


33. 	    Ibid. 42CFR457.110.


Federally Funded Health Centers and SCHIP        __________                               OEI-06-98-00321

                                                     15

34.      Balanced Budget Refinement Act of 1999, (P.L. 106-113), section 603.

35.	     Health Care Access: Programs for Underserved Populations Could Be Improved, GAO,
         GAO/T-HEHS-00-81, March 2000.

36.      Anecdotal evidence from the qualitative case study report, OEI-06-98-00320.

37.	     It is unclear whether centers believed that their influence affected the SCHIP models
         chosen by States or SCHIP implementation after the State model had been selected.




Federally Funded Health Centers and SCHIP      __________                                OEI-06-98-00321
                                                   16

                                      BIBLIOGRAPHY

Feld, Peter, Courtney Matlock, and David R. Sandman, Insuring the Children of New York City’s
Low-Income Families: Focus Group Findings on Barriers to Enrollment in Medicaid and Child
Health Plus, The Commonwealth Fund, December 1998.

The George Washington University Center for Health Policy Research, “Expansions of Coverage,
Managed Care Create New Outreach Challenges,” Health Policy, Child Health, Vol. 2, No. 1,
Winter 1995.

Grogan, Colleen M. and Michael K. Gusmano, “How Are Safety-Net Providers Faring Under
Medicaid Managed Care,” Health Affairs, March/April 1999, pp. 233-237.

Halfon, Neal, Moira Inkelas, Helen DuPlessis and Paul W. Newacheck, “Challenges in Securing
Access to Care for Children,” Health Affairs, March/April 1999, pp. 48-63.

Immigration and Naturalization Service, Department of Justice, “Public Charge Fact Sheet,” May 25,
1999.

Lipson, Debra J., “Medicaid Managed Care and Community Providers: New Partnerships, Health
Affairs, July/August 1997, pp.91-107.

Office of Inspector General, Department of Health and Human Services, CHIP’s Impact on
Changing Service Delivery of Federal Health Centers, OEI-06-98-00320, October 1999.

Office of Inspector General, Department of Health and Human Services, The Children’s Health
Insurance Program: State Application and Enrollment Processes An Early Report from the Front
Lines, OEI-05-98-00310, 1999.

Rosenbaum, Sara, Kay Johnson, Colleen Sonosky, Anne Markus and Chris DeGray, “The Children’s
Hour: The State Children’s Health Insurance Program,” Health Affairs, January/February 1998, pp.
75-89.

Rosenbaum, Sara, Barbara M. Smith, Peter Shin, Marcie H. Zakheim, Karen Shaw, Colleen A.
Sonosky and Lee Repasch, Negotiating The New Health System: A National Study of Medicaid
Managed Care Contracts, The George Washington University Center for Health Policy Research,
February 1998.

Ross, Donna Cohen and Wendy Jacobson, Free and Low-Cost Health Insurance: Children You
Know are Missing Out, Center on Budget and Policy Priorities, 1998.

Selden, Thomas M., Jessica S. Banthin, and Joel W. Cohen, “Medicaid’s Problem Children: Eligible
But Not Enrolled,” Health Affairs, May/June 1998, pp.192-200.

United States General Accounting Office, Medicaid and SCHIP: Comparisons of Outreach,
Enrollment Practices, and Benefits, GAO/HEHS-00-86, April 2000.




Federally Funded Health Centers and SCHIP   __________                              OEI-06-98-00321
                                                17
                                                                                      APPENDIX A


                  Discussion of Regression Model

Empirical Model and Data

We used the logit model to explain which factors had significant impact on SCHIP enrollment
outcomes in health centers. This model allows us to estimate the probability of a health center
enrolling children in SCHIP (p), or center not enrolling children(1-p), based on the linear
combination of independent variables. That is, Ln(p/ 1-p) =$ 0+ $1X1 +$2X2+ . . . . +$kXk + µ.
More explicitly, our model of health center’s SCHIP enrollment can be written:

         Model 1: Base Model

         Enroll = b0 + b1 Combi + b2 Separate 

                       + b3 ST_Out + b4 HC_Out + b5 ST_HC_Out
                       + b6 Out_worker + b7 Presump + b8 Train
                       + b10 ST_Out + b11 HC_Out + b12 ST_HC_Out
                       + b13 Month + b14 App_Time
                       + b15 Q2_Kid + b16 Q2_Kid + b17 Q2_Kid + g

         Model 1a : Auxiliary Model

         Train = b0 + b1 Out_worker + b2 Presump + g


Variable descriptions are included in Table A-2 below.

Results

Empirical findings of the Base Model indicate that receiving SCHIP enrollment training from the
State had the strongest impact on a health center’s SCHIP enrollment outcome. However, variables
that indicate health centers with outstationed eligibility workers and centers designated as
presumptive eligibility sites were not significantly related to the probability of enrolling children (See
Table A-2). This finding was contrary to our prior expectation based on results from our qualitative
studies, and Chi-Square statistics indicating that there was a significant association (p < 0.001)
between those two variables and the dependent variable. As a result, we examined the relationship
between SCHIP training and outstationed worker and presumptive eligibility site variables. We
found that there was an indirect effect of these variables on enrollment. As indicated earlier, we
employed an auxiliary regression model. The results showed that although outstationed worker and
presumptive eligibility site did not have direct impact on health center’s SCHIP enrollment, the
effects of these variables were working through enrollment training. Table A-1 presents the auxiliary
regression results.

                                     Table A-1: Auxiliary Regression Estimates
                            Dependent Variable: TRAIN     (N=371 ,Concordant=47.5%)

 Independent Variables            Parameter Estimate       Standard Error   Pr > Chi-Square    Odds Ratio

 OUT_WORKER                       0.8880                   0.2251           0.0001             2.430

 PRESUMP                          0.5089                   0.2525           0.0439             1.663

Federally Funded Health Centers and SCHIP              __________                             OEI-06-98-00321
                                                          A-1
State’s SCHIP model type also had a significant effect on a health center’s SCHIP enrollment
outcome. Health centers under a combined model or a separate SCHIP program are about three
times more likely to enroll children than centers under the Medicaid expansions model. State
outreach activities were also significant and health centers that reported State outreach were 2.5
times more likely to have enrolled children than those centers which reported their States had not
conducted outreach. In addition, eligibility determination time and approval date of State’s SCHIP
plan also had a significant effect on health centers’ enrollment. Table A-2 presents the base model
regression results with the variable descriptions.

                                            Table A-2: BASE Regression Model
                                              Dependent Variable: ENROLL
                                                  (n =371, c =82.7%)

 Independent                 odds           Descriptions
 Variables                   ratio          (All variables are binary, except MONTH is a continuous variable.)

 MEDI_EXP                    reference      State SCHIP model is Medicaid Expansion

 COMBI                       3.141*         State SCHIP model is Combined program

 SEPARATE                    2.947*         State SCHIP model is Separate program

 ST_OUT                      2.500*         health center reporting their State’s SCHIP Outreach Activities

 HC_OUT                      0.996          health center reporting their own center SCHIP outreach Activities

 ST_HC_OUT                   0.167          Interaction variable between ST_OUT * HC_OUT

 OUT_WORKER                  1.430          health center has outstationed eligibility workers at their site

 PRESUMP                     1.882          health center is designated as presumptive eligibility site for SCHIP
                                            enrollment

 TRAIN                       3.922*         health center received SCHIP enrollment training from their State

 MONTH                       1.113*         number of month each State had their SCHIP plan approved.
                                            (subtracting State’s approval date from January, 2000)

 SHORT_APP_TIME              2.143*         eligibility determination took less than one month

 Q1_KID^                     reference      number of kids(<1622) served in health center falls in 0-25%
                                            distribution

 Q2_KID^                     1.472          number of kids(1623-3567) served in health center falls in 26-
                                            50%distribution

 Q3_KID^                     1.133          number of kids(3568-7049) served in health center falls in 51-75%
                                            distribution

 Q4_KID^                     0.925          number of kids(>7049) served in health center falls in 76-100%
                                            distribution

 MCO                         1.418          health center has a managed care contract

 * significant at 0.05.
 ^Using 1998 HRSA UDS data, number of children (ages 0-19) served by sampled health centers.




Federally Funded Health Centers and SCHIP                __________                                      OEI-06-98-00321
                                                            A-2
                                                                                                  APPENDIX B


                                            Chi-square Test Results


 Frequency                                    Center a presumptive eligibility site for SCHIP
 Column percent

 Actually enrolled children under                  Yes                  No              Not            TOTAL
 SCHIP                                                                               applicable

                    Yes                            86                 87               109             282
                                                  85.15              66.92            76.22            75.4

                     No                            15                 43               34               92
                                                  14.85              33.08            23.78            24.60

                    Total                          101                130              143              374
                                                  27.01              34.76            38.24             100

 Statistic           a           DF          Critical chi-sq Value             Computed chi-sq Value   Probability
 Chi Square         0.01         2                 9.21                            10.264                 0.006

 Frequency                                     State requiring managed care contractors to mandate health centers
 Column percent                                in their provider network

 Health centers that have managed                  Yes                  No           Don’t Know        TOTAL
 care contracts that include children

                                                   97                   74               79              250
                     Yes                          71.85                69.81            52.67           63.94

                                                   38                   32               71              141
                     No                           28.15                30.19            47.33           36.06

                   TOTAL                           135                  106              150             391
                                                  34.53                27.11            38.36            100

 Statistic           a           DF          Critical chi-sq Value             Computed chi-sq Value   Probability
 Chi Square         0.01         2                 9.21                            13.518                 0.001

 Frequency                                     State requiring managed care contractors to mandate health centers
 Column percent                                in their provider network

 Health center-owned managed care                   Yes                No          Don’t Know          TOTAL
 organizations in the State

                                                   51                46                42               139
                     Yes                          37.78             42.20             27.81            35.19

                                                   65                60                59               184
                     No                           48.15             55.05             39.07            46.58

                                                   19                 3                50               72
                Don’t Know                        14.07              2.75             33.11            18.23

                   TOTAL                           135               109               151              395
                                                  34.18             27.59             38.23             100

 Statistic           a           DF          Critical chi-sq Value             Computed chi-sq Value   Probability
 Chi Square         0.01         4                 13.28                            41.642                0.001
Federally Funded Health Centers and SCHIP                 __________                                   OEI-06-98-00321
                                                             B-1

                                                                                  APPENDIX C


Point Estimates and Confidence Intervals from Key Survey Questions


                      All Health Centers -- Point Estimates and Confidence Intervals
                                       for Key Survey Questions

                                               Point Estimate    Standard Error     95% Confidence
 Proportion of All Health Centers               (in percent)      (in percent)         Interval

 Are States conducting outreach activities
 (n=405)
 < yes                                               74               1.3              71.5 - 76.5
 < no                                                12               0.9              10.1 - 13.9
 < no, but funds allocated                            8               0.8               6.5 - 9.5
 < no, but developing                                 5               0.6               3.8 - 6.2
 < don’t know                                         1               0.3               0.4 - 1.6

 Centers reporting they do conduct
 outreach activities                                 83               1.1              80.9 - 85.1
 (n=405)

 Center received outside resources for
 outreach (funds/manpower)                           42               1.4              38.9 - 44.5
 (n=405)

 Actually enrolled children under SCHIP
 (n=405)
 < yes                                               73               1.3              70.3 - 75.4
 < no                                                27               1.3              24.6 - 29.7

 State provided training on CHIP enrollment
 to center’s staff
 (n=405)
 < yes                                               55               1.4              52.5 - 58.1
 < no                                                41               1.4              37.9 - 43.5
 < don’t know                                        4                0.6               2.8 - 5.1

 Centers having outstationed eligibility
 workers                                             39               1.4              36.2 - 41.8
 (n=405)

 Of centers having outstationed eligibility
 workers, State funds the position
 (n=159)
 < Fully                                             45               3.4              38.3 - 51.7
 < Partially                                         30               3.1              23.9 - 36.1
 < Not at all                                        25               3.0              19.1 - 30.9

 Of centers not having outstationed
 eligibility workers, State designated as
 “low use”
 (n=246)                                              7               1.3               4.5 - 9.5
 < yes                                               82               1.9              78.3 - 85.7
 < no                                                11               1.5                8 - 14
 < don’t know




Federally Funded Health Centers and SCHIP      __________                              OEI-06-98-00321
                                                  C-1

                      All Health Centers -- Point Estimates and Confidence Intervals
                                       for Key Survey Questions

                                               Point Estimate    Standard Error   95% Confidence
 Proportion of All Health Centers               (in percent)      (in percent)       Interval

 How long to know eligibility from a
 completed application
 (n=295)
 < Few days                                          7                1.1               4.7 - 8.9
 < One to two weeks                                  12               1.4               9.2 - 14.5
 < Less than one month                               24               1.8              20.2 - 27.2
 < One to two months                                 37               2.0              32.6 - 40.6
 < More than two months                              13               1.4              10.4 - 16.0
 < Don’t know                                        8                1.1               5.6 - 10.0

 Center a presumptive eligibility site for
 SCHIP
 (n=405)                                             25               1.3              23.0 - 27.9
 < IS a presumptive eligibility site                 32               1.4              29.4 - 34.8
 < is NOT presumptive eligibility site               36               1.4              32.8 - 38.3
 < Not applicable in our State                       7                0.7               5.5 - 8.4
 < Don’t know

 Experiencing enrollment barriers
 (n=405)
 < ARE experiencing                                  64               1.4              61.2 - 66.7

 Have managed care contract that covers
 children
 (n=405)                                             37               1.4              34.0 - 39.5
 < no                                                63               1.4              60.5 - 66.0
 < yes

 Type or reimbursement currently receiving
 under largest SCHIP and/or Medicaid
 managed care contract
 (n=256)
 < Cost-based                                        55               2.4              50.8 - 60.1
 < Full capitation                                   17               1.8              13.7 - 20.7
 < Primary care capitation                           48               2.4              43.0 - 52.3
 < Primary care case management                      10               1.4               7.3 - 13.0
 < Risk withholding                                  12               1.6               9.1 - 15.2

 Center receiving direct reimbursement for
 enabling services through MCO
 (n=256)
 < yes                                               19               1.9              15.5 - 22.8
 < no                                                81               1.9              77.2 - 84.5

 State requires MCO to include health
 centers in provider networks
 (n=405)
 < yes, Medicaid/Medicaid expansion only             18               1.1              16.1 - 20.5
 < yes, separate SCHIP program only                  1                0.3               0.4 - 1.6
 < yes, for both programs                            13               1.0              10.9 - 14.7
 < no                                                27               1.3              24.6 - 29.7
 < don’t know                                        41               1.4              37.9 - 43.5




Federally Funded Health Centers and SCHIP      __________                              OEI-06-98-00321
                                                  C-2
                      All Health Centers -- Point Estimates and Confidence Intervals
                                       for Key Survey Questions

                                                    Point Estimate        Standard Error        95% Confidence
 Proportion of All Health Centers                    (in percent)          (in percent)            Interval

 Is there a health center-owned MCO in
 State
 (n=405)                                                  34                    1.4                31.6 - 37.0
 < yes                                                    46                    1.4                42.8 - 48.5
 < no                                                     20                    1.2                18.0 - 22.5
 < don’t know

 Does center-owned MCO operate in your
 service area
 (n=139)
 < yes                                                    63                    3.6                55.5 - 69.7
 < no                                                     37                    3.6                30.3 - 44.5

 Which best describes action taken by
 center to adapt to phase-out of cost-based
 reimbursement
 (n=365)
 < Center not affected due to                             16                    1.2                13.8 - 18.6
   freestanding program
 < Center received an extension to                        52                    1.7                48.2 - 54.8
   continue cost-based reimbursement
 < Center has made changes                                32                    1.6                29.3 - 35.4

 Has center made changes in
 ADMINISTRATIVE PROCEDURES
 (n=405)
 < yes                                                    62                    1.4                59.2 - 64.7
 < no                                                     38                    1.4                35.3 - 40.8

 Has center made changes in CLINICAL
 STAFFING
 (n=405)
 < Not made any changes                                   48                    1.5                44.8 - 50.5
 < Decreased clinical staff                               16                    1.1                14.0 - 18.1
 < Increased clinical staff                               36                    1.4                33.6 - 39.0

 Health centers expect to serve more, fewer,
 or same number of children three years
 from now (n=405)
 < More                                                   80                    1.2                78.0 - 82.5
 < Fewer                                                  2                     0.4                 1.4 - 3.1
 < Same                                                   12                    0.9                 9.8 - 13.4
 < Don’t know                                             6                     0.7                 4.8 - 7.5

Note: Some estimates are based on a sample size of less than 405. Not all centers in our sample were able to respond
to all the questions in the survey because some questions were not applicable to the centers and/or their States.




Federally Funded Health Centers and SCHIP           __________                                     OEI-06-98-00321
                                                       C-3

                                                                            APPENDIX D



                                            Agency Comments

In this appendix, we present comments from the Health Care Financing Administration and the
Health Resources and Services Administration.




Federally Funded Health Centers and SCHIP         __________                       OEI-06-98-00321
                                                     D-1
Federally Funded Health Centers and SCHIP   __________   OEI-06-98-00321
                                             D-2
Page 2 - June Gibbs Brown 


considered "enabling" such as translation services are required of all Medicaid providers,

however, we believe that most other enabling services would only be optional services for States

under Medicaid. 


It is often difficult to separate "assertive outreach" by health centers or health plans from

marketing. It might be useful t6 point out that the term outreach as used in this report means

encouraging clients to establish Medicaid eligibility rather than encouraging a choice of a

particular provider. 


Our specific comments are as follows: 


OIG Recommendation 

HCFA should encourage State actions and policies that promote successful enrollment of children

in SCHIP through the health centers. 


HCFA Response 

In general we concur with this recommendation. Please see below for specific discussion of each

sub -recommendation. 


C                 Encourage States to provide SCHIP enrollment training to all health centers.

We believe that this report needs to more fully discuss what is meant by enrollment training.
Specifics should be given as to what type of training is envisioned and the specific type of training
each worker within the center should be receiving. However, in principle we agree that enrollment
training should be provided to these health centers in I order to further the efforts States are
already making to simplify enrollment processes. Such training is necessary to ensure that parents
understand the enrollment process and are able to understand and can fill out enrollment forms.
Information is one key to success.
C	                Promote State adherence to regulations which require the States that implemented
                  Medicaid expansions to appropriately allocate outstationed. eligibility workers to
                  health centers.

We suggest re-framing this recommendation to focus on working with States to ensure that
outstationed eligibility workers are being located in the most appropriate settings (e.g., health
centers, schools, community centers) and to encourage States to expand the use of outstationing
as an enrollment technique. We believe that establishing outstationed eligibility workers in areas
convenient to families is another key step to achieving successful enrollment. For example, in rural
areas it may be necessary to provide door-to-door outreach and establish outstations so families
can sign up near their homes.




Federally Funded Health Centers and SCHIP       __________                                OEI-06-98-00321
                                                  D-3

Page 3 - June Gibbs Brown

C                 Encourage States to designate more health centers as presumptive eligibility sites,
                  where applicable.

We agree that States should be encouraged to designate health centers as presumptive eligibility
sites. Federally funded health centers can do presumptive eligibility (PE) determinations for
Medicaid or Medicaid expansions under Title XXI. Currently there is no explicit presumptive
eligibility authority in Title XXI, however, States can do PE-like eligibility determinations within
the current eligibility guidelines in SCHIP.
C	                Support continued State outreach activities and enhanced outreach at local
                  community levels where health centers are.

We agree with this recommendation, however there needs to be more recognition of current State
outreach and enrollment simplification activities, including targeted outreach through health
centers.

C                 Promote quicker Medicaid/SCHIP eligibility determinations.

We agree with this recommendation and are already making efforts in this area. We believe that
one way to promote quicker eligibility determinations is to simplify eligibility applications. States
may want to explore the use of electronic applications to improve the speed and ease of
application submittal. Some States are cutting once lengthy applications down to a few pages, are
accepting applications by mail and are -eliminating unnecessary verification requirements. We are
also encouraging States, through 1115 demonstration proposals, to incorporate innovative
outreach strategies to find and enroll eligible children.

C	                Encourage States to promote inclusion of health centers, that are ready for
                  managed care, in Medicaid/SCHIP managed care provider networks.

We agree with the recommendation. For this population it is imperative that managed care
networks include safety-net providers, such as health centers, as they are the backbone of a health
care delivery system for low-income children.

C                 Recommend that States promote MCO reimbursement for enabling services

We agree that States should be promoting MCO reimbursement for enabling services. However,
as stated above we think it would be helpful for the report to highlight what is meant by
"enabling" services. It can then be determined which of these enabling services are already
mandatory Medicaid services and which are optional. We can then accurately delineate which
services (e.g., translation) States should already be providing reimbursement to MCOs and which
services we should encourage states to employ.




Federally Funded Health Centers and SCHIP        __________                                OEI-06-98-00321
                                                  D-4

Page 4 - June Gibbs Brown 


OIG Recommendation 

HRSA should continue to support health center adjustments to the changing health care

environment. 


HCFA Response 

We concur with this recommendation. 


OIG Recommendation 

HRSA, in coordination with HCFA, should consider further examination of the impact of

SCHIP/Medicaid expansions outreach activities. 


HCFA Response 

Several efforts are currently underway to look at the effectiveness of outreach, including the

States' evaluations and annual reports; the overall evaluation of SCHIP that is underway by

Mathematica Policy Research; as well as the ongoing HCFA/HRSA monitoring efforts. We have

heard concerns from several States noting the many site visits and evaluations that are being done

simultaneously and seemingly with the same purpose. We would recommend giving the States'

programs additional time to further develop and expand their programs before HCFA increases its

monitoring and evaluation of the effectiveness of outreach efforts. We also recommend that any

future review or evaluations be consolidated with existing Department initiatives. 


Attachment




Federally Funded Health Centers and SCHIP     __________                               OEI-06-98-00321
                                               D-5

Page 5 - June Gibbs Brown

TECHNICAL COMMENTS
C	                In general, the references to SCHIP/Medicaid expansions throughout the report are
                  misleading and not consistent with the terminology in the forthcoming final SCHIP
                  regulation. As a rule, references to SCHIP programs are references to any program
                  that receives enhanced Federal matching funds up to the amount of the available
                  SCHIP allotment. There are two types of SCHIP programs - Medicaid expansion
                  programs and separate child health programs - that may be referred to. Although
                  the Medicaid rules apply in States that implement Medicaid expansion SCHIP
                  programs, the funding is structured differently.

C	                On page 1, the reference to the intent to provide the same "quality" of health care
                  as private insurance may be misleading. We recommend characterizing the intent of
                  SCHIP as providing States with an opportunity to design health care delivery
                  systems that are similar in scope and structure to coverage that is available through
                  private insurance.
C	                On page 6, it would be useful to provide some examples of "enrollment training.
                  What activities does enrollment training encompass?

C	                In the second paragraph on page 6, we are concerned about the references to
                  States using "presumptive eligibility." Our analysis of the States' SCHIP
                  evaluations (submitted to HCFA in March/April 2000) has concluded that States
                  are using the term presumptive eligibility in very different ways and in varying
                  degrees. In fact, most States are not using presumptive eligibility for children in
                  either Medicaid or SCHIP. This point is consistent with the third recommendation
                  to expand the availability of presumptive eligibility providers.

C	                On page 9 of the draft report, there is a discussion of the "phase out" of "Medicaid
                  cost-based reimbursement" and the same phrase is used throughout the draft
                  report. HCFA has taken the position that the phase-out was of the mandatory
                  levels of cost-based reimbursement; States, at their option, may continue to pay
                  100% of Medicaid reasonable costs. In other words, the statute no longer says that
                  States MUST pay 100% of reasonable costs, but a State MAY still do so.




Federally Funded Health Centers and SCHIP        __________                                OEI-06-98-00321
                                                   D-6

Federally Funded Health Centers and SCHIP   __________   OEI-06-98-00321
                                                D-7
      Health Resources and Services Administration's Comments on the Office of the
      Inspector General Draft Report "Federally Funded Health Centers and Low Income
      Children's Health Care: improving SCHIP Enrollment and, Adapting to a Managed
      Care Environment (code OEI-06-98-00321)

      General Comments

      Ile Health Resources and Services Administration (HRSA) appreciates the opportunity to
      provide our comments on the Office of Inspector General (OIG) draft report, "Federally
      Funded Health Centers and Low Income Children's Health Care: Improving SCHIP
      Enrollment and Adapting to a Managed Care Environment" (Code OEI-06-98-00321).

      Technical Comments

      On Page 2, under the bold heading, "Methodology", second sentence beginning "The first
      phase in a two part study, that inspection employed a case study approach.......”, doesn't
      make sense and needs to be rephrased.

      On Page 3, the first paragraph titled "Sample", second sentence beginning "These grantees
      include Primary health Centers, .........”, we suggest an alternate clarification: "These grantees
      include Community Health Centers,........”

      On Page 6, in the next to last paragraph discussing "sixty-one percent of health centers.......”,
      this section should include a statement to the effect that all FQHC's except low-use sites, are
      required by Federal regulations to have out stationed eligibility workers and that the cost of
      these workers are born by Medicaid. This requirement needs to be clearly indicated on this
      page. In addition, we recommend an addition of the finding that most states are not adhering
      to this requirement.

      On Page I 1, under the bold heading "HCFA should.......”, we suggest that an added
      paragraph is placed that would include verbiage regarding the requirement for placement and
      payment for out stationed eligibility workers. For example, the paragraph could start out:
      Inform states about their obligation to place out stationed eligibility workers in FQHCs and
      to provide Medicaid reimbursement for these workers.

      On Page 12, under the bold heading "HRSA should continue....., while we agree with it
      conceptually, the second recommendation is of concern because of the financial risk of such
      an organization and that the success of such an entity is beyond the role of the Federal
      funding agency but rather lies with the support of both the state and local community and
      agencies. It is critical to look closely at the particular marketplace before determining what to
      do in the community. At this point we are supporting the development of health center
      owned plans only through the Loan Guarantee Program.




Federally Funded Health Centers and SCHIP        __________                                 OEI-06-98-00321
                                                     D-8

